2311 Douglas Street
Omaha, Nebraska 68102-1214

E-Mail Address:
contact@cocklelegalbriefs.com

1-800-225-6964
(402) 342-2831
Fax: (402) 342-4850

Web Site
www.cocklelegalbriefs.com

No. 20-843
NEW YORK STATE RIFLE
& PISTOL ASSOCIATION, INC., et al.,
Petitioners,
V.

KEVIN P. BRUEN, in his official capacity as
Superintendent of New York State Police, et al.,
Respondents.

AFFIDAVIT OF SERVICE
I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 21st day of September, 2021, send
out from Omaha, NE 2 package(s) containing 3 copies of the BRIEF OF AMICI CURIAE FORMER NATIONAL
SECURITY OFFICIALS IN SUPPORT OF RESPONDENTS in the above entitled case. All parties required to be served
·
have been served by Priority Mail. Packages were plainly addressed to the following:
SEE ATTACHED

To be filed for:
MARY B. MCCORD
Counsel of Record
ANNIE L. OWENS
INSTITUTE FOR CONSTITUTIONAL
ADVOCACY AND PROTECTION
GEORGETOWN UNIVERSITY LAW
CENTER
600 New Jersey Ave., N .W.
Washington, D .C. 20001
(202) 661-6607
mbm7@georgetown.edu

Subscribed and sworn to before me this 21st day of September, 202 J.
I am duly authorized under the laws of the State of Nebraska to administer oaths.

NERA1. NOTARY-State of Nebri1ka
RENEE J. GOSS

My COmm. Exp. September 5, 2023

Affia nt

41459

Attorneys for Petitioners
Paul D. Clement
Counsel of Record
Kirkland & Ellis LLP
1301 Pennsylvania Avenue, NW
Washington, DC 20004
202-389-5000
paul.clement@kirkland.com
Party name: New York State Rifle & Pistol Association, Inc., et al.
Attorneys for Respondents
Barbara Dale Underwood
Counsel of Record
Solicitor General
Office of the Attorney General
28 Liberty Street
New York, NY 10005-1400
212-416-8016
Barbara.underwood@ag.ny.gov
Party name: Kevin P. Bruen, et al.

